<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                         TUESDAY, MAY 15, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 4:05 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Steve Daines (Chairman) presiding.
    Present: Senators Daines, Hyde-Smith, Murphy, and Van 
Hollen.

                 UNITED STATES SENATE SERGEANT AT ARMS

STATEMENT OF HON. MICHAEL STENGER, SERGEANT AT ARMS
ACCOMPANIED BY:
        JIM MORHARD, DEPUTY SERGEANT AT ARMS
        DICK ATTRIDGE, ASSISTANT SERGEANT AT ARMS FOR PROTECTIVE 
            SERVICES AND CONTINUITY
        JOHN JEWELL, CHIEF INFORMATION OFFICER
        KRISTA BEAL, CAPITOL OPERATIONS
        MIKE CHANDLER, OPERATIONS
        TERENCE LILEY, GENERAL COUNSEL
        ROBIN GALLANT, CHIEF FINANCIAL OFFICER

               OPENING STATEMENT OF SENATOR STEVE DAINES

    Senator Daines. Good afternoon. The subcommittee will come 
to order. Welcome to the third of our fiscal year 2019 budget 
hearings for the Legislative Branch Appropriations 
Subcommittee.
    We have with us today the Honorable Michael Stenger, the 
newly appointed Sergeant at Arms, and Chief Matthew Verderosa, 
Chief of the U.S. Capitol Police.
    I want to sincerely thank both of you for being here today, 
and I want to welcome Mr. Stenger to your first hearing before 
this subcommittee.
    Both the Capitol Police and the Sergeant at Arms work to 
ensure the smooth operation of the legislative process. You 
enable us to more effectively do our job by protecting the 
Capitol campus and our State offices in providing training on 
matters from emergency preparedness to cybersecurity so that we 
have the capability to protect ourselves as well. We truly 
appreciate the work that you do.
    The Sergeant at Arms' request for fiscal year 2019 is 
$210.7 million, an increase of approximately $2.1 million above 
the fiscal year 2018 enacted level. The request includes $84.2 
million for salaries and benefits, and a request of $126.6 
million for expenses. The request continues cybersecurity 
initiatives to protect our network and educate end-users, and 
provides support for the day-to-day operations of the Senate.
    The Capitol Police requests a total of $456.4 million, an 
increase of $29.9 million above the fiscal year 2018 enacted 
level. Of the funding requested, $374.8 million is for salaries 
and benefits to cover fixed cost increases for pay and benefits 
of existing staff, an additional 72 sworn officers, as well as 
21 civilians, for a total force of 2,015 sworn officers and 441 
civilians.
    The request for the general expenses account is $81.6 
million, an increase of $6.8 million above the fiscal year 2018 
enacted level. This increase supports replacement of body armor 
and weapons, as well as mission-essential training for 
officers.
    The request supports continued growth of the force for new 
mission requirements and increasing protection of the campus. I 
look forward to gaining a better understanding of your needs to 
fulfill these requirements here today.
    Now, I would like to turn to my ranking member, Senator 
Murphy, for any opening remarks he may like to make.

                STATEMENT OF SENATOR CHRISTOPHER MURPHY

    Senator Murphy. Thank you very much, Chairman Daines.
    Welcome to both of you. Mr. Stenger, congratulations on 
your new role. Chief Verderosa, thank you for everything you do 
every day.
    I cannot say it better than the Chairman. Nothing that we 
do here, none of the experiences that visitors to the Capitol 
Complex have, mean a thing unless they and we are safe. You 
spend every day thinking about how to preserve the safety of 
Members, our staff, and the public, so I primarily want to use 
my time to say thank you once again for all the great work that 
you do, and I look forward to your testimony and questions.
    Thank you, Mr. Chairman.
    Senator Daines. Senator Hyde-Smith.

                 STATEMENT OF SENATOR CINDY HYDE-SMITH

    Senator Hyde-Smith. Thank you, Mr. Chairman, for convening 
the hearing.
    Thank you guys for being here. I am the new one, so you 
just went through the briefing with me, and you were so 
thorough. I really appreciate everything you did to make sure I 
was aware of the needs and the protocol, should something 
arise.
    You are just so critical with the entire Complex, in 
keeping us safe and ensuring that operations are run well and 
organized. Your offices sure make it feel better when I have 
visitors to come in, and I know they are in a safe environment.
    I realize that it is National Police Week, so I just want 
to say thank you for your sincere commitment of what you do, 
for the U.S. Capitol Police and the Sergeant at Arms, because 
we know how vital and important your work is. I, for one, 
appreciate what you do and the way you handle your jobs.
    Thank you very much.
    Senator Daines. Thank you, Senator Hyde-Smith.
    I would like to ask the witnesses, beginning with Mr. 
Stenger, to give a brief opening statement of approximately 5 
minutes.
    Mr. Stenger.

               SUMMARY STATEMENT OF HON. MICHAEL STENGER

    Mr. Stenger. Mr. Chairman, Ranking Member Murphy, 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear before you today and present the Sergeant 
at Arms 2019 budget request.
    Mr. Chairman, this budget request reflects a modest 
increase of 1 percent over the fiscal year 2018 enacted budget. 
The increase to our salary budget includes nine contracted 
full-time equivalent (FTE) conversions and inclusion of a Chief 
of Data Security.
    I would like to thank the subcommittee for its support in 
providing funding for our initiatives. The Sergeant at Arms 
provides critical safety planning and support to ensure the 
legislative process goes unimpeded. I can provide this planning 
and support because of the talented leadership I have behind 
me, Jim Morhard, my Deputy; Assistant Sergeants at Arms Dick 
Attridge, John Jewell, Krista Beal, and Mike Chandler; as well 
as Terence Liley, my General Counsel; and Robin Gallant, my 
Chief Financial Officer.
    In this budget, we are taking a strategic view as it 
relates to the safety and security of the Senate. We remain 
focused on ways to adjust to the challenges of today's evolving 
security environment, as our adversaries change their tactics, 
techniques, and methods.
    In order to ensure the safety of the Senate campus, my 
security planning and police operations directorate provides 
direct support to the Senate community by monitoring and 
reporting on emergencies. We accomplish this through our 
staffing in the Capitol Police Command Center during all hours 
that the Senate is in-session. In 2017, we monitored over 360 
such incidents and provided timely feedback to the Senate 
staff.
    This directorate is also home to the State Office Readiness 
Program, which provides security enhancements to the 473 State 
offices. They also provide training for State staff through 
webinars, video teleconferencing, and in-person visits on 
topics such as active threats and security awareness.
    My Intelligence and Protective Services Director works with 
Senate offices to coordinate public event schedules with the 
Capitol Police. Together, they develop protective security 
strategies to ensure the safety and security of the Senators 
and their staff when planning and attending public events. 
During 2017, we successfully provided Intelligence and 
Protective Services guidance, law enforcement coordination, 
assessment, and support for 147 public events that Senators 
attended.
    The CIO office continues to focus on addressing threats in 
the cyber domain. We appreciate the committee's support during 
fiscal year 2018, funding our 33 contractor-to-FTE conversions 
and the 23 new FTEs to bolster our cyber capabilities.
    We identified a need for additional resources in our 
cybersecurity program when we moved from a reactive to a 
proactive cybersecurity strategy. These additional FTEs 
provided in the 2018 budget request are critical in bolstering 
our cybersecurity preparedness and mitigation strategy.
    Though cybersecurity begins with users, in 2017, we 
constructed a robust cybersecurity awareness program providing 
real-time, actionable information to users. While technical 
solutions such as firewalls, antispyware, and antivirus 
software aid in protecting Senate data, end-users are still the 
first and most effective line of defense for protecting the 
security of sensitive information.
    To help ensure the Senate staff are best prepared for this 
important responsibility, we provide cyber awareness sessions 
to Member offices, including the State offices and committees.
    During Cybersecurity Awareness Month, we focused on 
security awareness using social media applications, providing 
cybersecurity training and resources, and implementing critical 
overall cybersecurity strategy.
    With the technologies we have procured, we are able to 
provide cyber defenses against malicious messages while 
providing advanced analyses of these messages. We also continue 
to analyze and block malicious websites, files, and other 
attacks on the Senate network. We will continue to reduce 
cybersecurity risk through providing more frequent and improved 
reports to Senate offices.
    Finally, we continue to build and maintain partnerships 
with other agencies, organizations, and private industries 
through information-sharing. These partnerships ensure that we 
develop advanced and current solutions to counter the spread of 
destructive malware. Coordination allows us to plan and train 
for future cyberattacks.
    We also provide day-to-day operational support for the 
Senate. It is important to ensure that the Capitol facilities 
meet the expectations of the Members and the public.
    Our mail security and postal handling service is a critical 
safety function for the Senate.
    The Chamber operations recording studio and media gallery 
support the ability for Senators to communicate with their 
constituents and ensure transparency in the legislative 
process.
    We look forward to working closely with you and the 
subcommittee staff. I will be happy to answer any questions 
that you may have.
    [The statement follows:]
               Prepared Statement of Hon. Michael Stenger
                              introduction
    Mr. Chairman, Ranking Member Murphy, and Members of the 
subcommittee, thank you for allowing me to testify today. I am pleased 
to report on the progress of the Office of the Senate Sergeant at Arms 
(SAA) and our plans to enhance our service to the Senate.
    For fiscal year 2019, the SAA requests a total budget of 
$210,752,000. This request represents a modest 1 percent increase from 
the fiscal year 2018 enacted budget. Since that time, we have realized 
significant cost savings from staff buyouts completed in 2013 and 2016 
and from rigorous contract management and restructuring, while 
continuing to provide critical, high-quality services the Senate 
community has come to expect. Our customer satisfaction levels remain 
high and we remain good stewards of the funds entrusted to us.
    Leading the efforts of the SAA is an outstanding senior management 
team, including my Deputy Jim Morhard; Assistant SAAs Dick Attridge 
(Protective Services and Continuity), John Jewell (Chief Information 
Officer), Mike Chandler (Operations), and Krista Beal (Capitol 
Operations); General Counsel Terence Liley; and Chief Financial Officer 
Robin Gallant. The many goals and accomplishments set forth in this 
testimony would not have been possible without this team's leadership 
and commitment, as well as the dedication of the women and men who work 
for the Senate SAA office.
                   protective services and continuity
Emergency Preparedness
    We designed our plans and procedures to safeguard the life safety 
of Senators, staff, and visitors by equipping them with the tools and 
training to respond to emergencies. Our primary objective is to ensure 
the Senate continues its essential functions following emergency 
events.
    During 2017, the Emergency Preparedness office worked with Senate 
offices to update 106 Emergency Action Plans using guidelines from the 
Congressional Accountability Act. We supplied kits, annunciators, and 
escape hoods, as well as ensuring Member suites displayed evacuation 
maps with routes and elevator locations for mobility-impaired 
individuals. New Member offices received personalized training on 
emergency preparedness procedures, personnel accountability, and 
equipment use. We distributed Emergency Preparedness Quick Reference 
Guides to familiarize Members and Office Emergency Coordinators with 
critical information about responding to threatening situations and 
emergency events, and to highlight key actions necessary during life 
safety events. We also assisted 26 Member offices and committees with 
drafting Continuity of Operations (COOP) plans, strengthening the 
Senate's ability to continue performing its essential functions during 
and after disruptive events.
    We conducted 280 classes, training over 3,800 staff on a variety of 
topics including responding to active shooters, protective actions, 
emergency action planning, and ALERTs/Remote Check-in procedures. The 
``Responding to an Active Shooter'' class taught with the U.S. Capitol 
Police (USCP) provided participants with an understanding on how to 
react and what to expect from law enforcement. Moreover, we hosted more 
than 180 visitors at our annual Preparedness Fair, which provided 
information about resources available in the National Capital Region.
    The readiness and protection of Senators, staff, and visitors 
within the Senate Chamber continues to be a primary focus. We worked 
with USCP to conduct a full-scale exercise to validate the Chamber 
Emergency Action Guide. The exercise included more than 250 
participants, many from Member offices. Participants responded to a 
variety of scenarios, including aircraft intrusion, rapid building 
evacuation, and active shooter simulation inside the Chamber, all 
resulting in staff taking rapid protective measures.
    We manage Alternate Chamber and Briefing Center planning efforts 
for the Senate, and constantly aim to improve offsite capabilities 
should relocation become necessary. We conducted a multi-day, full-
scale exercise of the Alternate Chamber at Ft. McNair to confirm the 
location's viability. This exercise included participation from 
approximately 40 Member offices and committees. The Emergency 
Preparedness office also developed and implemented the Capitol Visitor 
Center (CVC) COOP Program, allowing the Senate to use this space during 
a continuity event.
    In collaboration with USCP, we continue to conduct annual 
evacuation, shelter in place, and internal relocation drills to 
familiarize staff with effective life safety responses in emergencies. 
We supported more than 30 drills that included the Capitol, CVC, Senate 
office buildings, Senate Page School, Employee Child Care Center, and 
Postal Square. Many of these exercises were ``no notice'' to create a 
more realistic response to emergency events. In fiscal year 2017, we 
conducted our first aircraft security threat evacuation drill for 
Senate office buildings, requiring staff to evacuate their buildings 
and move farther away from the Capitol than they normally would. We 
also conducted an internal relocation drill during a non-recess week to 
evaluate realistic staff levels that would relocate to these sites. 
Feedback from both exercises was overwhelmingly positive and we were 
able to make improvements to our plans based on lessons learned.
    We partnered with the USCP, House, and Architect of the Capitol 
(AOC) to acquire and roll out the Joint Emergency Mass Notification 
System (JEMNS), the first joint alert notification system on Capitol 
Hill. JEMNS adds desktop pop-up features and smartphone applications to 
convey critical life safety notifications to the Capitol Hill 
community. The final product eliminates the need for legacy 
notification systems, saving the Senate approximately $400,000 a year. 
In 2018, JEMNS will be expanded to include the Library of Congress 
(LOC). During fiscal year 2019 we will lead the Joint Audible Warning 
System (JAWS) project to replace the outdated annunciator system in 
order to project audible life safety alerts throughout office spaces. 
JAWS will make it easier for USCP officers to communicate life safety 
messages in areas not supported by the Public Address System. Project 
expenses will be shared with the House, USCP, AOC, and LOC, allowing 
for potential volume discounts and reduced infrastructure costs.
    To ensure we can handle call volumes from friends and family of 
staff affected by a mass casualty event, we led an effort between the 
Senate, House, USCP, and AOC to award a joint contract for 
comprehensive Call Center services at a cost savings to all 
stakeholders.
    Staff communications, when executing emergency plans, remains key 
in achieving successful outcomes, especially while deployed at 
continuity sites. We are finalizing plans to modernize an outdated 
radio system and permit multi-agency interactions on encrypted 
equipment during exercises and real-world events. We are working with 
executive branch agencies to acquire secure, interoperable mobile 
devices that provide classified communication capabilities for officers 
and emergency response staff. We are also collaborating with the House, 
USCP, AOC, and LOC to update and manage joint continuity communications 
plans and procedures.
    Finally, to improve the ability to prepare for and respond to life 
safety and COOP events, we are converting several vendor support staff 
to full-time employees, eliminating two major contracts valued at 
$900,000 and saving approximately $100,000 annually. This conversion 
will allow us to better retain talented staff and add capabilities and 
skillsets for unclassified continuity facilities and life safety 
emergency planning.
Contingency Programs
    My team continues to develop and refine contingency plans in 
collaboration with the Joint Congressional Continuity Board and with 
executive branch agencies to sustain a common approach to preparedness. 
We developed an inter-branch Memorandum of Agreement ensuring 
organizational interests are represented across the continuity arena. 
Further, the completion of a Joint Congressional Continuity Strategy 
document was a major milestone achieved last year, to ensure Congress 
can meet its Constitutional obligations and perform its essential 
functions under any circumstances. Another successful continuity 
initiative includes the completion of robust contingency site plans and 
expanded site capabilities stemming from collaboration between the 
Senate, House, and USCP. We are making significant progress on 
developing an austere capability that greatly improves the Senate's 
readiness posture.
    We continue managing a comprehensive Senate exercise program to 
routinely practice and validate plans. Last year, we conducted 23 
exercises covering all aspects of continuity, including Mobile Assets, 
Alternate Chamber, Chamber Protective Actions, Emergency Operations 
Center, Briefing Center, communications, transportation, continuity 
staffing, evacuations, internal relocation, shelter in place, alert 
notifications, and continuity of government. Our planners provide an 
objective, independent analysis of life safety and continuity programs 
and assist in the validation and improvement of actionable plans by 
identifying strengths, weaknesses, and lessons learned through no-fault 
environments. This approach ensures program objectives are met in a 
manner that continues to benefit Members and staff.
Security Planning and Police Operations
    This office provides security and law enforcement support for the 
Senate community in Washington, DC, and over 450 State offices. In 
fiscal year 2017, we coordinated 1,508 Senate campus access requests--
an increase of 8 percent. Further, we worked with the Committee on 
Rules and Administration and USCP to publish numerous door and 
barricade restrictions during recess periods, special events, and 
holidays. Additionally, we coordinated security coverage of 538 
committee hearings, a 40 percent increase over the previous year, and 
conducted four Member residential security assessments.
    We also provide situational awareness through USCP Command Center 
support. During fiscal year 2018 we transitioned from a contract to 
full-time staff who are on duty while the Senate is in session and 
during periods of recess. Approximately 480 incidents and events, a 31 
percent increase over the previous year, were monitored through this 
program last year. Security oversight and coverage during the 
Inauguration, State of the Union address, summer concert series, and 
various joint sessions of Congress was also conducted.
    The State Office Readiness Program provides security systems and 
enhanced office security construction designs--as well as preparedness 
equipment, training, and services--to approximately 450 State offices 
without impacting Member office budgets. During 2017, the program 
provided physical security enhancements to 35 new Member State offices, 
as well as enhanced security in 21 existing offices. The program also 
trained nearly 300 Office Emergency Coordinators, staff, and interns 
through 24 online classes and webinars. We continue supporting State 
offices to comply with the Congressional Accountability Act in their 
emergency action and Continuity of Operations plans through coordinated 
development and storage of their master documents. In 2018, we will 
initiate a program to notify State offices of potential protest 
activity.
Intelligence and Protective Services
    We recognize the value of maintaining collaborative partnerships 
with various Federal, State, and local law enforcement, intelligence, 
and force protection entities to synchronize information, identify 
security risks, monitor threat streams, and maintain situational 
awareness. This ensures appropriate mitigation and prevention 
strategies are deployed for protecting the safety and security of the 
Senate, domestically and abroad.
    Growing social media platforms and the availability of open source 
materials has allowed individuals to spread malicious intents and 
activities to a wide-ranging audience. Intelligence and Protective 
Services thus proactively monitors and analyzes platforms for potential 
threat activity as well as engages with community partners and subject 
matter experts to maintain security-related situational awareness in an 
effort to deter malicious acts against Members, their families, staff, 
and associated locations.
    Our office collaborates with USCP and other law enforcement to 
ensure appropriate outreach and coordination for specifically targeted 
Members and staff. Further, we monitor, evaluate, and conduct 
vulnerability, risk, and threat assessments to determine and apply 
suitable security measures and protective operations coverage. We 
conduct situational awareness outreach for the Senate community 
regarding significant upcoming events or planned activities around the 
Capitol complex and State offices to prevent adverse impacts to Senate 
business. Finally, we partner with USCP and other agencies to support 
contingency and oversee security operations planning to ensure incident 
management and response action plans are in place.
                         information technology
Cybersecurity and Response
    The SAA is in the third year of transforming the Cybersecurity 
Program from being reactive to becoming proactive. In 2016, gap 
analysis identified personnel and process shortfalls subsequently 
addressed in the 2018 budget request. We intend to capitalize on this 
throughout 2018 and 2019 with the additional FTEs provided in the 
fiscal year 2018 budget request.
    We continue to focus our efforts on cyber threats. Last year, we 
implemented a robust Cybersecurity Awareness Program providing real-
time, actionable information to users. While technical solutions such 
as firewalls, anti-spyware, and anti-virus go a long way toward 
protecting information, end-users are still the first and most 
effective line of defense.
    To help ensure Senate staff are best prepared for this important 
responsibility, we provide Cyber Awareness sessions to member offices, 
to include State offices, and committees. For example, we sponsored the 
October Cybersecurity Awareness Month focusing on social media topics 
to instill security awareness when using these applications. Throughout 
2018 and 2019, we will continue to increase training and resources to 
the Senate offices.
    We are undergoing a shift in focus toward cybersecurity risk in 
2018 and will provide risk reports to assist offices in lowering their 
risk. In 2017, we provided 86 reports, identifying vulnerabilities 
requiring remediation, to Member offices. Throughout 2018 and 2019, we 
will refine and improve this reporting by conducting cybersecurity 
audits and identifying personnel requiring cybersecurity training. 
These audits will identify and measure vulnerabilities based on risk. 
Further, we will have audits performed on the Cybersecurity Department 
to determine how effectively the Cyber Security Operations Center can 
detect, react, and recover from cyber threats. This will provide 
leadership a more holistic review as to the resiliency of the entire 
Cybersecurity Program.
CIO Security Enhancements
    We are working with offices on the multi-factor authentication 
effort to identify business needs for enhanced security. This past 
year, we worked with office representatives to understand their 
concerns and requirements. We then surveyed the marketplace for 
possible solutions. We are developing a procurement strategy to 
identify the best solutions for the Senate.
    In response to office requirements, the SAA conducted an analysis 
for a Credential Management Solution. We validated the requirements 
with Member and committee offices and SAA stakeholders. We selected and 
implemented a solution to secure and manage passwords and other user 
authentication information based on the Senate's business and technical 
requirements. The Credential Management service was made available to 
all offices in March 2018.
    In response to an ongoing need for increased security of privileged 
accounts, we expanded enrollment of SAA staff credentials with 
administrative access to highly valuable data into our Privileged 
Access Management solution (PAM). PAM significantly increases the 
security posture of Senate information systems, protecting the most 
sensitive data by limiting exposure of privileged credentials and 
protecting access to those credentials with two-factor authentication. 
We have fully enrolled user credentials for all administrators of our 
network authentication, messaging, enterprise mobility management, and 
Virtual Machine Infrastructure systems, as well as the administrators 
of numerous cybersecurity threat detection and management systems. We 
are expanding PAM services to offices for the protection of their most 
sensitive systems administration accounts, including the accounts used 
to administer their Constituent Services Systems.
    We maintain the digital identity data that supports IT-related 
business requirements of the Senate. In maintaining the authoritative 
source of digital identity data for the Senate community, we process 
over 8,000 identity requests and credential matching tasks annually. 
The mature Identity and Access Management (IAM) program under 
development will enhance data security by centralizing the on-boarding, 
identity maintenance, access, and de-provisioning of identities 
requiring access to applicable Senate systems. We are beginning the 
multi-year implementation of a software suite that will automate 90 
percent of the aggregation tasks (identity requests and credential 
matching). Automating on-boarding, de-provisioning, and digital 
identity lifecycle tasks will greatly improve the productivity of 
Senate offices by reducing the administrative burden associated with 
hiring, terminating, and transferring personnel.
    The CIO supports the IT portion of our Continuity of Operations 
programs through a variety of IT-related functions. This support 
includes our Mobile Communication Vehicles, network and phone 
communications for Alternate Chamber Operations, Leadership 
Coordination Centers, Emergency Operations Centers, and Briefing 
Centers.
Enterprise and Network Services
    We remain focused on increasing connectivity speed in both the 
State Senate offices and the Senate DC campus. We have completed the 
migration to broadband Internet service for State offices, providing 
these offices significant increases in bandwidth at each of the 450-
plus locations. The increased bandwidth also supports emerging 
technologies such as improved video conferencing capabilities. The 
Senate wireless network comprises over 1,180 wireless access points 
supporting, on average, 3,500 concurrent users per day in 12 campus 
buildings and multiple State offices. State office access point 
purchases have increased 30 percent over this last year. We have 
installed just under 30 additional access points throughout the Senate 
Complex and increased the 5 GHz channel width to improve the user 
experience, adding additional redundancy and bandwidth.
    As a part of our 5-year data center plan, we switched our primary 
and alternate data centers, making our Virginia data center primary and 
Capitol Hill data center the alternate to support continuing operations 
plans. We are in the process of researching feasibility of moving our 
alternate data center to a Legislative-owned building on Capitol Hill. 
For 2018 and 2019, the focus will shift to adding additional redundancy 
within the Senate data centers. We have begun by collapsing existing 
network connections into single pairs of switches at each location and 
aggregating all internal services. In addition, this will prepare the 
network for the future where various systems will be sharing hardware, 
allowing for more virtualization and elasticity.
    Moving over 800 Virtual Machines to the new primary data center 
positions the SAA to achieve improved uptime and greater system 
resiliency. We upgraded the Senate's Virtual Machine Infrastructure 
(VMI), which hosts over 1,100 virtual servers and supports nearly every 
Senate application. We upgraded the software supporting the VMI 
infrastructure, adding new functionality, additional redundancy, 
enhanced disaster recovery capabilities and the ability to leverage 
Multi-Factor Authentication. Additionally, we started the planning and 
assessment process to upgrade the storage platform supporting the VMI. 
The next storage solution will further improve performance, enabling 
the CIO to virtualize even the most demanding applications. With the 
recent improvements to the Senate's VMI, we are revisiting 
consolidated, virtualized Constituent Services Systems solutions to 
reduce the server footprint.
    In response to office requests, we expanded our enterprise storage 
services to include Media and Archive Storage (MAS), a cost-effective 
solution for archival of high-capacity data. MAS provides scalable 
storage fora variety of file formats and can be increased or decreased 
based on current demand and usage. In contrast to traditional storage 
procurement, MAS enables us to quickly and more precisely address 
unknown capacity requirements that are subject to rapid change and pass 
lower cost to offices utilizing the service.
Enterprise and System Development Services
    We continue to work in partnership with the Secretary of the Senate 
to modernize the Financial Management Information System. Several new 
financial modules are scheduled for implementation this year, allowing 
for the retirement of legacy system components. This multi-year joint 
effort will continue until the financial system modernization is 
completed. We continue to support operations and enhancements to the 
PeopleSoft Senate Payroll System and Human Resources Information 
System. We also developed a new feature for the Payroll Employee Self 
Service to allow employees the option to stop receiving paper pay 
advices, W2s, and Affordable Care Act forms in the mail.
    We continue to manage shared resources to host office websites on 
senate.gov. As part of the ongoing effort to modernize the underlying 
senate.gov platform, we identified a solution to enable better 
management of the shared resources while continuing to provide 
flexibility and autonomy. This year, we completed the installation of 
OpenShift Enterprise, enabling us to define website hosting 
environments for each office with dedicated resources. Beginning in the 
spring of this year, all new websites are being deployed on the modern 
platform. We will continue capitalizing on this to best support our 
customers.
    TranSAAct is our platform for doing business online and addressing 
the requirements of offices. Over the past year, we have continued to 
add functionality to TranSAAct. We completed improvements to the 
communications services requests and updated the ID request forms to 
reflect new business processes and rules. We also added the ability to 
review and request remote access tokens, updated the software 
subscription renewal pages, updated billing presentment to be more 
meaningful to committees; added service recipient profiles to reduce 
redundant data entry and updated the underlying technologies to keep 
pace with technology improvements. This year, we are working with 
stakeholders to integrate changes related to the new technology catalog 
and to make appropriate changes to TranSAAct based on new business 
processes supporting a new Identity and Access Management system.
    Office Application Manager (OAM) is a secure and replicated Web-
based application that provides Member offices and support 
organizations the ability to create and manage customized online forms 
such as service academy nominations and internship and fellowship 
applications. It also includes tools to handle requests from 
constituents and communicate back to them via email. In the last year, 
we worked with Senate staff to enhance the questionnaire customization 
functionality to allow offices the ability to create sub-questions so 
answers are more informative. This new feature will improve the 
offices' ability to receive more targeted and accurate responses from 
applicants or requestors. To date, 67 offices and support organizations 
have OAM accounts, with 480 questionnaires created.
IT Support Communications
    The SAA is responsible for the digital signage located throughout 
the Hart, Dirksen, and Russell buildings, under the direction of the 
Senate Committee on Rules and Administration. The digital signage 
includes interactive directory services, hearing schedules, and future 
graphical wayfinding capabilities and location based emergency 
notifications. This multi-year project will expand the signage to 
approximately 58 locations throughout the Senate office buildings, 
located at entrances, stairwells, elevators, and other high-traffic 
areas.
    The much anticipated, multi-year effort to upgrade and modernize 
the State office telephony infrastructure for all 450-plus State 
offices is underway and the first 14 offices have been completed. It 
will provide each State office with new hardware, increased 
flexibility, a feature-rich voicemail platform, and additional security 
at a lower cost. The SAA onsite installation experience is increasing 
the SAA's view and understanding of the Senate offices' telephony 
needs, as well as building strong working relationships with the office 
staff.
    We are beginning our implementation of Session Initiation Protocol 
(SIP) trunk lines, which will remove our dependency on Verizon for 
trunking, generating cost savings over the next several years. The 
upgrade of several servers integral to the DC telephone switch will 
allow us to improve support and be prepared for future technologies.
    While our DC voicemail platform has been upgraded to allow for 
additional features and redundancy, we are now working on expanding 
capacity due to increased voicemail traffic. This upgrade will spilt 
our voicemail platform into two separate clusters in order to dedicate 
additional resources for voicemail traffic, allowing for maximum 
capacity on each cluster while still maintaining the features, 
functionality, and flexibility required to support Senate offices.
    Our central IT Help Desk answers approximately 11,000 inquiries 
from Senate users annually, taking trouble reports, and coordinating 
the activities of technicians who resolve problems by phone, online, 
and in person. During the past year, the installation team completed 
more than 7,000 installation projects, received a 99 percent score on 
timeliness, while the Help Desk resolved 48 percent of trouble tickets 
during the initial call.
                               operations
Central Operations
            Transportation and Fleet Operations
    Transportation and Fleet Operations procures, manages, and 
maintains Senate vehicles; operates the Senate Daily Shuttle service; 
and provides the Senate with emergency transportation and logistics 
support. The fleet includes trucks, vans, buses, SUVs, electric 
vehicles, handicapped-accessible vehicles, and Segways. During fiscal 
year 2019, we will focus on reducing older vehicle inventory with 
newer, more efficient vehicles to better meet the needs of our 
customers. In fiscal year 2017, staff transported more than 25,000 
passengers through the SAA Shuttle service.
            Photography Studio
    The Photo Studio provides photography and photo imaging services 
for Senate offices and committees. The studio manages and maintains the 
Photo Browser application, which provides Senate offices a secure, 
accessible archive of all photos accumulated during a Senator's term in 
office. This application contains more than 1.5 million photo image 
files. In 2017, staff photographed more than 100,000 images, produced 
more than 64,000 photo prints, and coordinated end of term archiving of 
more than 77,000 photo images for Senators.
Printing, Graphics and Direct Mail
    Printing, Graphics and Direct Mail (PGDM) provides support to the 
Senate community through graphic design, printing, photocopying, 
mailing, document preservation, logistics, and security--completing 
more than 45,900 job requests and 2,650 various deliveries throughout 
the Capitol Hill campus and offsite locations during fiscal year 2017.
    As a good steward of fiscal resources, PGDM garnered notable 
savings for the Senate, including:
  --Reducing equipment maintenance costs by $74,000 through re-
        negotiating contracts.
  --Saving more than $1.1 million by locally producing charts for 
        Senate floor proceedings and committee hearings in spite of a 
        12 percent increase in production.
  --Saving more than $855,000 in postage by pre-sorting and discounting 
        3.7 million pieces of outgoing Senate franked mail.
    Digital publications and multimedia are becoming an increasingly 
important complement to printing. In fiscal year 2017, PGDM leveraged 
applications such as Adobe Creative Suite to create and host rich 
interactive HTML5 documents. PGDM can now create more integrated 
campaigns by using digital technology and creating both print and 
digital editions to extend our content delivery to computers, tablets, 
and smartphones.
    PGDM has incorporated electronic forms, allowing Senate offices to 
efficiently convert paper-based processes (fax machines/fillable PDF 
submissions) to web-based service. The electronic form provides 
internal and external users a process to collect data efficiently and 
accurately, while streamlining operations such as tracking, auditing, 
and reporting, without having to invest in IT infrastructure or 
software developers. In fiscal year 2017, the electronic State Office 
Form allowed Senate DC and State offices the ability to submit over 
1,700 forms containing monthly postal charges for financial accounting 
purposes.
    In fiscal year 2017, PGDM's Senate Support Facility upheld the SAA 
mission for operational security by receiving 5,381,526 items from the 
U.S. Capitol Police offsite inspection facility and transferring them 
to the Senate Support Facility. This process eliminated 423 truck 
deliveries to the Capitol Complex, reducing traffic and allowing the 
USCP to focus on other aspects of safety.
Senate Post Office
    The Senate Post Office's workforce tests and delivers mail and 
packages to more than 180 locations within the Capitol Complex, while 
providing a messenger service to multiple locations within the 
Washington metropolitan area. In fiscal year 2017, the Senate Post 
Office safely processed and delivered 11.9 million incoming mail items. 
The Government Accountability Office reimbursed the SAA $11,000 for 
screening their incoming U.S. Postal Service mail. The Senate Post 
Office purchased 150 additional mail-screening workstations for Senate 
State offices to replace older units. Additional mail screening 
workstations will be purchased in the next year to ensure availability 
of the most current equipment for all State staff.
Capitol Facilities
    Capitol Facilities supports the work of the Senate by providing a 
clean, professional environment in the Capitol for Senators, staff, and 
visitors. Our Environmental Services Division cleans Capitol offices, 
hallways, and restrooms; moves furniture for offices; and provides 
special event setups for 15 meeting rooms in the Capitol and the Senate 
Expansion space in the Capitol Visitor Center. The Furnishings Division 
provides furnishings--including stock and custom furniture, carpeting, 
and window treatments to Capitol offices. It also provides framing 
services for Senate offices and committees. Focus continues on 
realizing cost savings and improved efficiency, while not sacrificing 
service. Capitol Facilities has combined job specialties and engaged in 
cross-training employees to ensure services are maintained at the 
highest level. Current initiatives include ongoing upgrades to our 
online work order system to notify staff of new work orders, track 
workloads, and provide 3D furnishing floorplans to Senators for use in 
their Capitol offices.
Office Support Services
    The State Office Liaison staff serve as the conduit between Senate 
offices and commercial landlords, or the General Services 
Administration for Senate offices in Federal facilities, overseeing 450 
State offices. Managing this important program helps assure every 
Senator's ability to meet the growing needs of their local 
constituencies.
                           capitol operations
    Ensuring that our customers--both internal and external--have 
access to the Senate and understand its work remains the focus of the 
SAA's Capitol Operations team. Over the past year, team members 
provided a range of services to Senators and their staffs, visitors to 
the Capitol, members of the news media who cover Congress, and the 
public. Capitol Operations continues to focus on providing timely, 
accurate, and useful information that promotes safety, increases 
transparency, and enhances the experience of those who work in and 
visit the Senate.
Senate Recording Studio
    In a time of instant communication and demands for transparency, 
the Senate Recording Studio ensures the Senate's work remains 
accessible to the public. During 2017, the Recording Studio provided 
1,166 hours of gavel-to-gavel coverage of Senate floor proceedings and 
continues to provide technical support for live streaming and archiving 
of the proceedings on the Senate's website, www.senate.gov. Last year, 
the streamed proceedings were viewed 6.02 million times, an increase of 
180 percent over 2016. Additionally in 2017, 586,295 unique visitors 
visited the site, an increase of 239 percent over the previous year. To 
keep the quality of this production in line with current standards, the 
studio upgraded the Senate floor audio system in 2017. The Recording 
Studio also broadcast 750 Senate committee hearings in 2017, a 38 
percent increase over 2016. The studio coordinates with Voice of 
America, the Department of State, and other agencies to provide these 
hearings to a larger audience. Another priority of the Recording Studio 
is to enable Senators working in DC to communicate with their 
constituents back home. During 2017, the studio produced 1,037 
television productions, an increase of 29 percent over the previous 
year. Additionally, the studio produced 1,308 radio productions, a 46 
percent increase over 2016.
Senate Media Galleries
    For members of the news media, the Senate remains one of the most 
open and accessible institutions of government. On any given day, 
hundreds of reporters, producers, photographers, videographers, and 
technical support personnel can be found in hearing rooms, hallways, 
and in the Chamber, bringing the news of the Senate to people across 
the country and around the world.
    The four Senate Media Galleries ensure the news media can conduct 
business efficiently, safely, and in a manner consistent with Senate 
rules. The unique structure of the Media Galleries, dating back to the 
earliest days of the Senate, requires close cooperation with the 
Standing and Executive Correspondents' Committees, the USCP, and press 
secretaries and communications staff of Senators' offices and 
committees. Media Gallery staff facilitate media credentials and 
arrange for more than 7,000 members of the news media to cover the 
Senate each year. In the past year, the number of media credentials 
issued has risen 18 percent.
            Daily Press Gallery
    Last year, the Daily Press Gallery issued credentials to 
approximately 1,600 journalists. As custodians of the largest press 
complex on Capitol Hill, the gallery staff serve more than 100 
reporters who work in the Press Gallery on a regular basis. Gallery 
staff control access to the Press Gallery inside the Senate Chamber and 
ensure gallery rules are followed. They coordinate with Senate 
committees on press coverage for hearings and other events around 
Capitol Hill. The staff remain focused on modernizing services, 
streamlining the online credentialing process, and maintaining real 
time website updates on Senate floor proceedings and notifications to 
Senate staff and reporters via email and Twitter (@SenatePress).
            Periodical Press Gallery
    The Periodical Press Gallery supports the news media working for 
non-daily periodicals and their online publications. Media presence on 
Capitol Hill has increased dramatically over the past year, and gallery 
staff help maintain crowd control in the Senate subway and the Ohio 
Clock Corridor during votes and party caucus meetings. Gallery staff 
continue to process new press applications in consultation with the 
Executive Committee of Periodical Correspondents, and renew press 
credentials for approximately 1,200 correspondents. The staff remain 
focused on streamlining communication with gallery members and Senate 
staff. For example, the number of followers to the gallery's Twitter 
account (@Senate PPG) grew over 23 percent in 2017 to 7,486 followers. 
These efforts help drive traffic to the gallery's website, where 
information on Senate floor proceedings, the credentialing process, and 
Senate factoids are consolidated.
            Press Photographers Gallery
    The Press Photographers Gallery supports photographers representing 
news organizations from across the United States and around the world. 
Last year, the gallery credentialed approximately 300 news 
photographers. Unlike the other three Media Galleries, which have 
counterparts in the House of Representatives, Press Photographers 
Gallery staff support the media at news events and hearings for both 
Houses of Congress. During the past year, gallery staff supported press 
logistics at many high profile hearings and events. The gallery staff 
work with other SAA offices, the U.S. Capitol Police, and Senate 
offices to ensure press photographers have access without interfering 
with the duties of the Members. Additionally, the gallery is fine-
tuning the press logistics for Continuity of Government plans.
            Radio and Television Gallery
    The Radio and Television Gallery serves as the Senate's primary 
contact to the broadcast news, ensuring the Senate's broadcast coverage 
rules are followed. Gallery staff function as liaisons between Senate 
offices and the broadcast media. In 2017, staff assisted in organizing 
coverage of more than 200 news conferences, 1,400 committee hearings, 
160 photo opportunities, and 40 special events--a significant increase 
over the previous year. The gallery issued credentials to approximately 
4,000 television and radio reporters, producers, and technical 
personnel. The gallery also maintains the studio and technical 
infrastructure Senators use for news conferences.
Senate Doorkeepers
    Senate Doorkeepers play a critical role in supporting the 
legislative process. They provide access to those with Senate floor 
privileges; enforce the rules of the Senate floor; and facilitate the 
needs of Senators, Senate floor staff, and Senate Pages. Doorkeepers 
also provide support for a number of special events attended by 
Senators, their families, and special guests. In addition to directly 
supporting Senators, Doorkeepers ensure people from around the world 
can visit the Senate Galleries safely. Doorkeepers are also tasked with 
emergency preparedness roles, and balance the dual priorities of 
maintaining access and preparing for emergency situations.
Senate Appointment Desks
    The Senate Appointment Desks are responsible for processing 
thousands of guests who enter the Capitol each year for business 
meetings or other purposes in a safe and efficient manner. During 2017, 
approximately 220,000 visitors were processed through our network of 
Appointment Desks located on the first floor of the Capitol, in the 
basements of the Russell and Hart Senate office buildings, and in the 
Capitol Visitor Center (CVC). Of these, 116,000 visitors were in the 
Capitol Complex for official business or for a meeting with a Member, a 
Member's office, or a committee. In addition, more than 29,000 
international visitors relied on the CVC Appointment Desk for Senate 
Gallery Passes and information.
                          saa human resources
    The SAA Office of Human Resources provides personnel services and 
advice to SAA managers and employees. In addition, SAA Human Resources 
provides workers' compensation, ergonomic assessments, Americans with 
Disabilities Act accommodation requests, and recruitment services to 
the broader Senate community. During fiscal year 2017, the Senate 
Placement Office received 590 requests for recruitment assistance from 
Senate offices and processed 29,304 resumes, with 2,088 resumes 
collected and referred. Overall, in fiscal year 2017, the Placement 
Office processed 35,435 resumes from applicants for Senate employment.
                senate office of education and training
    The Office of Education and Training ensures all Senate staff have 
the resources and skills needed to perform their jobs. In 2017, nearly 
3,000 staff attended in-person classes and over 1,400 attended online 
classes. The office facilitated three conferences for over 170 State 
staff, and provided customized training, facilitation services, and 
coaching to Members, committees, and support offices, in which more 
than 2,000 staff members participated. This year, the office plans to 
continue to offer leadership development, introduce training 
opportunities for administrative directors and chief clerks, and 
increase the library of online lessons.
    The Health Promotion section within Education and Training provides 
mandated health promotion activities and events for the Senate 
community. Each year, the office coordinates and hosts the 2-day Health 
and Wellness Fair. In 2017, more than 2,100 staff participated in 
health promotion activities, which included screenings for glucose, 
cholesterol, and blood pressure; exercise demonstrations; and seminars 
on topics including healthy eating and cancer prevention.
                      employee assistance program
    Our Employee Assistance Program (EAP) offers a variety of 
emotional, behavioral and work-related support resources and services 
to staff, their family members, Senate Pages, and interns. In 2017, 
nearly 1 in 20 Senate employees used the services of an EAP counselor; 
181 employees took an online mental health screening; 31 managers 
requested a supervisory consultation; 2,862 employees attended an EAP 
training activity; and 1,593 employees' accessed resources for 
personalized information and referrals addressing childcare, parenting, 
adult care, aging, education, legal concerns, and/or financial issues.
                               conclusion
    The SAA organization is composed of a diverse array of departments. 
All of them exist to serve the Senate so that it can function as part 
of the legislative branch of our government. To provide the checks and 
balances on any administration, the legislative branch must be able to 
function efficiently in an effort to create and pass legislation. To do 
so, the Senate SAA must and will provide the needed services that allow 
the legislative branch to function.

                               Appendix A

                    fiscal year 2019 budget request

          Office of the Sergeant at Arms--United States Senate

                   FINANCIAL PLAN FOR FISCAL YEAR 2019
                                 ($000)
------------------------------------------------------------------------
                                      Fiscal Year 2018  Fiscal Year 2019
              Category                     Enacted           Request
------------------------------------------------------------------------
General Operations & Maintenance
    Salaries........................           $78,565           $84,157
    Expenses........................            71,116            68,259
                                     -----------------------------------
        Total General Operations &            $149,681          $152,416
         Maintenance................
 
Mandated Allowances & Allotments....            42,188            43,759
Capital Investment..................             9,590             7,851
Nondiscretionary Items..............             7,182             6,726
                                     -----------------------------------
        Total.......................          $208,641          $210,752
                                     ===================================
 
Staffing............................               910               920
------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2019 
budget request of $210,752, an increase of $2,111, or 1.0 percent, 
compared with fiscal year 2018. The salary budget request is $84,157, 
an increase of $5,592, or 7.1 percent, and the expense budget request 
is $126,595, a decrease of $3,481, or 2.7 percent. Staffing is expected 
to be 920 FTEs.

    We present our budget in four categories:

  --General Operations and Maintenance (Salaries and Expenses);
  --Mandated Allowances and Allotments;
  --Capital Investment; and
  --Nondiscretionary Items.

    The General Operations and Maintenance Salaries budget request is 
$84,157, an increase of $5,592, or 7.1 percent, compared with fiscal 
year 2018.
    The General Operations and Maintenance Expenses budget request is 
$68,259, a decrease of $2,857, or 4.0 percent, compared with fiscal 
year 2018.
    The Mandated Allowances and Allotments expense budget request for 
fiscal year 2019 is $43,759. This budget supports State office rents at 
$18,170; purchase of computer and office equipment at $8,725; 
maintenance and procurement of member office constituent mail services 
system at $7,150; voice and data communications for Washington, DC, and 
State offices at $4,800; recording studios at $2,100; State office 
security enhancements at $1,641; wireless services and equipment at 
$988, Appropriations Analysis Support System at $100, office computer 
supplies at $65 and PCs to schools at $20.
    The Capital Investments expense request for fiscal year 2019 is 
$7,851. This budget includes funding for Recording Studio equipment 
upgrades at $2,300; Data Network Campus Infrastructure at $1,750; 
Storage Area Network at $1,000; Enterprise Systems Infrastructure $910; 
Network Operations Infrastructure, $306; Printing Graphics and Direct 
Mail equipment upgrades at $400, Wireless Network Infrastructure at 
$200 and Network Management Equipment & Technology Upgrade at $985.
    The Nondiscretionary Items expense request for fiscal year 2019 is 
$6,726. This budget includes support for the Payroll System at $3,199, 
funding to support the Secretary of the Senate for contract maintenance 
of the Financial Management Information System (FMIS) at $2,807, and 
maintenance and necessary enhancements to the Legislative Information 
System at $720.

    Senator Daines. Thank you, Mr. Stenger.
    I would add that the written testimony of each witness will 
be printed in the full hearing record.
    Mr. Verderosa.
                              ----------                              


                      UNITED STATES CAPITOL POLICE

STATEMENT OF HON. CHIEF MATTHEW R. VERDEROSA
ACCOMPANIED BY:
        STEVEN SUND, CHIEF OF OPERATIONS/ASSISTANT CHIEF
        RICHARD BRADDOCK, CHIEF ADMINISTRATIVE OFFICER
        GRETCHEN DEMAR, GENERAL COUNSEL
        DOMINIC STORELLI, CHIEF FINANCIAL OFFICER
        MICHAEL BOLTON, ACTING INSPECTOR GENERAL
        GUS PAPATHANASIOU, FRATERNAL ORDER OF POLICE CHAIRMAN
        KAREN GRAY-THOMAS, INTERNATIONAL BROTHERHOOD OF TEAMSTERS CHAIR
    Chief Verderosa. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Murphy, and Members of the 
subcommittee, I appreciate the opportunity to present the 
department's budget request for fiscal year 2019. I am joined 
today by my Chief of Operations, Assistant Chief Steven Sund; 
Chief Administrative Officer Richard Braddock; General Counsel 
Gretchen DeMar; Chief Financial Officer Dominic Storelli; as 
well as other members of my executive team. We are also joined 
here today by Acting Inspector General Mike Bolton and USCP 
Fraternal Order of Police Chairman Gus Papathanasiou, who is 
certainly a partner with me in working with the work force.
    First, I would like to thank the subcommittee for its 
unwavering support of the U.S. Capitol Police, and for 
providing the necessary funding to support our personnel and 
operations.
    Since I last appeared before the subcommittee, the 
Department has effectively managed an ever-increasing number of 
demonstrations, has swiftly responded to critical incidents and 
civil disobedience, and has investigated numerous credible 
threats made against Members of Congress and the Capitol 
itself. Most notably, our mission to protect and serve Congress 
was thrust into the national spotlight on June 14, 2017, after 
a gunman fired shots at the Republican congressional baseball 
team practice, and our own highly trained special agents 
responded swiftly and heroically, preventing a serious tragedy.
    The Department also received its sixth consecutive 
accreditation from the Commission on Accreditation for Law 
Enforcement Agencies. We were awarded CALEA's Gold Standard 
with Excellence, the highest rating a law enforcement agency 
can receive during the evaluation process. This distinction is 
a real testament to the professionalism of our work force and 
demonstrates that we have consistently implemented the best law 
enforcement practices.
    I am extremely proud of the Department and our responses to 
the extraordinary events of the past year. No one could have 
predicted all that we have encountered, but our officers are 
trained to face each and every crisis and challenge, and we 
must always be prepared to face the unimaginable.
    Mr. Chairman, and Members of the subcommittee, the support 
of the subcommittee and the Capitol Police Board has 
contributed to our success in achieving our mission as well as 
our ability to recognize and address the dynamic nature of the 
current threats. We are truly grateful for your keen 
understanding of the complexity of our mission and the 
challenges that we face.
    We have developed our fiscal year 2019 budget with a focus 
on continuing to equip and prepare our work force to be agile 
and responsive to the operations of Congress and keeping the 
U.S. Capitol Complex safe and secure. Our overall fiscal year 
2019 request is $456.4 million and represents an increase of 7 
percent over fiscal year 2018 enacted levels.
    As we experienced on the baseball field in Alexandria last 
June, occurrences of homegrown violent extremist, lone-wolf 
episodes are on the rise. Across the world, we continue to see 
more and more terrorist organizations attacking public venues. 
As a result, our officers must look at every event on Capitol 
Grounds. Mass demonstrations, concerts, traffic stops, and even 
the simple act of Members crossing the street for a vote is a 
potential target for threat.
    Based on the increase in terrorist and domestic casualty 
events, and upon studying the tactics displayed by known 
assailants, we continuously review our operational and tactical 
postures to ensure that we are taking every measure possible to 
maintain the security of the Capitol Complex while allowing the 
legislative process to continue to function in an open 
environment protecting individuals' First Amendment rights.
    Therefore, working in concert with the Capitol Police 
Board, the department is continuing to deploy additional 
screening of various means throughout the Complex. This 
involves deploying security measures to better secure and 
screen at building access points. Our fiscal year 2019 budget 
request includes base funding for 1,943 sworn, 420 civilian 
positions, and requests half-year funding for an additional 72 
sworn officers and 20 civilian positions. These additional 
sworn personnel will be utilized to enhance the department's 
ability to detect, impede, and address the threats that 
currently exist and continue to evolve.
    Additionally, we are also requesting one civilian position 
for the Office of Inspector General for the purposes of 
furthering their work on addressing potential cybersecurity 
threats.
    Our request also includes funding for items such as 
protective travel, supplies, and equipment; management systems 
and technology upgrades; and other nonpersonnel needs. The 
funding for the requirements will address increases in 
operating costs, including investments in training, recruiting, 
and outfitting our new employees; replacing key equipment and 
systems that are outdated or are becoming obsolete; and 
restoring annual levels reduced in previous fiscal years to 
meet vital department needs.
    Mr. Chairman, and Members of the subcommittee, the United 
States Capitol Police is the only police department in the 
Nation that does what we do and with the high visibility in 
which we do it. Mission focus will always be the key to our 
ability to be successful, to serve and protect, and to ensure 
our employees go home safe every day. Congress relies on us to 
do our jobs so that they may do the people's work in a free and 
open manner in the People's House.
    In closing, I want to ensure the subcommittee that the U.S. 
Capitol Police is committed to always being at the ready to 
ensure that the Capitol Complex is safe and secure. We will 
continue to work closely with you and the subcommittee staff to 
ensure that we meet the needs and the expectations of Congress, 
as well as our mission, in a reasonable and responsible manner.
    Again, I thank you for the opportunity to appear here today 
before you, and I would be pleased to answer any questions you 
may have.
    [The statement follows:]
         Prepared Statement of Hon. Chief Matthew R. Verderosa
    Chairman Daines, Ranking Member Murphy, and Members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police budget request 
for fiscal year 2019. I am joined here by some members of my Executive 
Team and Executive Management Team, including Chief of Operations, 
Assistant Chief Steven Sund; Chief Administrative Officer Richard 
Braddock; General Counsel Gretchen DeMar; Chief Financial Officer 
Dominic Storelli; and Acting Inspector General Michael Bolton. Also 
joining me today is USCP Fraternal Order of Police (FOP) Chairman Gus 
Papathanasiou, as well as USCP International Brotherhood of Teamsters 
Chair Karen Gray-Thomas.
    First, I would like to thank the subcommittee for its unwavering 
support of the United States Capitol Police. On behalf of the entire 
Department, I would like to express our appreciation to the Members of 
this subcommittee, and to the entire Congress for providing the 
necessary funding to support our personnel and operations.
    Since I last appeared before the subcommittee, the Department has 
effectively managed an ever-increasing number of demonstrations, has 
swiftly responded to critical incidents and civil disobedience, and has 
investigated numerous, credible threats made against Members of 
Congress or the U.S. Capitol. Most notably, our mission to protect and 
serve Congress was thrust into the national spotlight on June 14, 2017, 
after a gunman fired shots during the Republican Congressional baseball 
team's practice, and our own highly-trained Special Agents responded 
swiftly and heroically; preventing a serious tragedy.
    The Department also received its sixth consecutive accreditation 
from the Commission on Accreditation for Law Enforcement Agencies, Inc. 
(CALEA). We were awarded CALEA's Gold Standard with Excellence--the 
highest rating a law enforcement agency can receive during the 
evaluation process, which is reserved for Departments that exhibit 
strong organizational health. The U.S. Capitol Police was further 
recognized for having been accredited for 15 or more continuous years 
with the enhanced Certificate of Meritorious Accreditation. Receiving 
this distinction demonstrates how much the Department has grown and 
matured since receiving our first accreditation in November 2002. All 
of these distinctions are a real testament to the professionalism of 
our workforce, and it demonstrates that we are constantly implementing 
the best law enforcement practices.
    I am extremely proud of the Department and our responses to the 
extraordinary events of the past year. No one could have predicted all 
that we have encountered, but our officers are trained to face each 
crisis and challenge, and we must always be prepared to face the 
unimaginable. We know that what at first may appear to be routine or 
even mundane may in fact be a threat to the safety and wellbeing of the 
Capitol Complex. We are always aware that any threat can change very 
quickly as circumstances unfold.
    Mr. Chairman, the support of the subcommittee and the Capitol 
Police Board has contributed to our success in achieving our mission, 
as well as our ability to recognize and address the dynamic nature of 
current threats. You and your staff have taken great time and made 
significant efforts to work closely with the Department's leadership 
team, and we are truly grateful for your keen understanding of the 
complexity of our mission and the challenges we face.
    We have developed our fiscal year 2019 budget with a focus on 
continuing to equip and prepare our workforce to be agile and 
responsive to the operations of Congress, and keeping the U.S. Capitol 
Complex safe and secure. Our overall fiscal year 2019 request is $456.4 
million, and represents an increase of 7 percent over fiscal year 2018 
enacted levels.
    As with all law enforcement agencies, personnel salaries and 
overtime make up the majority of our annual budget. Conversely, we 
could not do what we do without our dedicated law enforcement officers 
and professional civilian staff. We have continuously worked throughout 
the Department to effectively and prudently allocate our existing 
resources to achieve the best possible staffing balance to meet mission 
requirements. We regularly analyze our workforce distribution to align 
job functions, assignments, workload, risk management, and 
organizational readiness, along with the threat assessments and 
mandatory mission requirements, within a dynamic environment.
    Even utilizing these various strategies, the types of threats we 
are seeing and responding to are changing every day. Today, there are 
no routine activities for law enforcement officers. The reality is that 
the Capitol Complex remains an attractive target to foreign and 
domestic terrorists, homegrown violent extremists, other lone 
offenders, and political extremists. These threats could take the form 
of an active shooter, vehicle ramming, improvised explosive devices, 
drones, chemical or biological substance releases, or any combination 
of these tactics.
    As we experienced on that baseball field in Alexandria, Virginia, 
last June, occurrences of homegrown, violent extremist ``lone wolf'' 
episodes are on the rise. Lone offenders, in particular, are nearly 
impossible to detect due to their ability to keep their plans hidden 
and the prevalence of encrypted communications. Across the world, we 
continue to see more and more terrorist organizations attacking public 
venues. In just the past year, we have seen an escalation in the number 
of mass casualty events in our own country.
    As a result, our officers must look at every event on the Capitol 
Grounds--mass demonstrations, concerts, traffic stops, and even the 
simple act of Members crossing the street for a vote, as a potential 
target for a threat. Our officers continually assess each activity they 
see for any risks to the safety and security of the Capitol Complex.
    Based on this increase in terrorist and domestic mass casualty 
events and upon studying the tactics displayed by known assailants, the 
U.S. Capitol Police continuously reviews our operational and tactical 
postures to ensure that we are taking every measure possible to 
maintain the security of the Capitol Complex, while allowing the 
legislative process to continue to function in an open environment, and 
protecting individuals' First Amendment rights. While we do not know of 
any imminent threat on the U.S. Capitol or the legislative process, we 
must be prepared to respond effectively to any threat that may present 
itself.
    Therefore, working in concert with the Capitol Police Board, the 
Department is continuing to deploy additional screening of various 
means throughout the Capitol Complex. This involves deploying security 
measures to better secure and screen at building access points.
    Over the past year, the Department has identified areas to modify 
or eliminate mission requirements to offset these additional security 
priorities. We also reviewed duties currently performed by sworn 
personnel and began to civilianize several positions so that officers 
could be reassigned to duty stations that utilized their specialized 
training and skills to further meet operational requirements.
    Our fiscal year 2019 budget includes base funding for 1,943 sworn 
and 420 civilian positions, and requests half-year funding for an 
additional 72 sworn officers and 20 civilian positions. These 
additional sworn personnel will be utilized to enhance the Department's 
ability to detect, impede, and address threats that currently exist and 
continue to evolve. Additionally, we are also requesting one civilian 
position for the Office of Inspector General for the purposes of 
furthering their work on addressing potential cybersecurity threats.
    To support these efforts, the fiscal year 2019 funding request 
reflects a 6.57 percent increase over the fiscal year 2018 enacted 
level for personnel costs. This increase is necessary to address the 
annual cost of living and benefit cost increases incurred by the 
Department, additional staffing requirements, and overtime costs to 
meet mission requirements.
    As you are aware, the Department's current sworn staffing levels do 
not provide the complete and necessary resources to meet all of our 
mission requirements within the established sworn officer utility or 
the number of work-hours in a year that each officer is available to 
perform work. This utility number is used to determine overall staffing 
requirements. It balances the utility of available staff with annual 
salary and overtime funding along with known mission requirements. 
These known requirements include post coverage, projected unscheduled 
events such as demonstrations, late-night sessions, and holiday 
concerts. The utility number also estimates unfunded requirements that 
occur after the budget is enacted, such as unforeseen critical 
emergency situations, and providing adequate police coverage of 
congressional hearings.
    Because of the need to fill the mission requirement gap through 
overtime, the Department has struggled to take our sworn personnel off 
of their posts to conduct training. In order to provide mandatory 
training, we must utilize overtime to ensure that the officers may be 
offline for training, while meeting our daily mission requirements. 
There are flexibilities that other law enforcement agencies have to 
offset or defer daily requirements to allow for officer training that 
our unique mission does not afford us.
    Therefore, mission requirements in excess of available personnel 
must be addressed through the identification of efficiencies such as 
post realignment and/or reductions, technology, and cutbacks within the 
utility. Where necessary, we meet this requirement through the use of 
overtime. If the requested staffing levels for fiscal year 2019 are 
funded, the Department's overtime projection is approximately $43.7 
million. This amount will cover base mission requirements, our support 
of non-reimbursable events at the Library of Congress, and the ability 
for sworn employees to be backfilled while they attend mandatory and 
necessary training.
    For the Department's General Expenses budget, our request includes 
items such as protective travel; hiring, outfitting, and training new 
sworn personnel; supplies and equipment; management systems and 
technology upgrades; and other non-personnel needs. In planning for 
increases in both the number of facilities we will be protecting and 
staffing requirements, we are requesting $81.5 million for general 
expenses, which is an increase of $6.7 million over the fiscal year 
2018 enacted level. This funding will address increases in operating 
costs including investments in training, recruiting and outfitting new 
employees, replacing key equipment and systems that are outdated and 
becoming obsolete, and restoring annual levels reduced in previous 
fiscal years to meet vital Department needs.
    As the Chief of Police, it is my fiduciary responsibility to look 
at every opportunity within the Department to accomplish our mission 
before asking for additional resources. The subcommittee and the 
Congress have been very supportive of the Department, and I would not 
ask for additional resources unless we have identified a great need. We 
put in much time and planning while formulating our budget request each 
year.
    For the past 8 years, we have implemented uniform procedures to 
effectively measure and justify USCP planning, program, and resource 
requirements through a comprehensive, standardized, and repeatable 
management process that we call the ``Force Development Business 
Process.'' It provides a transparent decisionmaking process that 
includes reviews and approvals by an Investment Review Board made up of 
key agency management, and it provides a structure that is results-
driven and based on meeting operational needs. In addition, to ensure 
the accuracy of our budget request, our fiscal year 2019 budget went 
through multiple layers of review and validation, and is tied to 
supporting documentation for each budget element.
    Further, I am pleased to report that the Department received its 
sixth consecutive unmodified ``clean'' opinion on our financial 
statements from the USCP Office of Inspector General (OIG). The 
Department truly values the OIG's assistance in our efforts to further 
improve operations and performance; and the long-term resolution of 
recommendations related to internal controls, business processes and 
material weaknesses remains of the highest importance to me and our 
management team.
    I would like to take the opportunity to thank Fay Ropella who 
served as the USCP Inspector General for 5 years, and was instrumental 
in guiding the Department's efforts to become more effective and 
efficient. She retired from Federal service at the end of March, and we 
all wish her the best in retirement. As we continue to work to further 
the mission of the Department, we look forward to working with Mr. 
Bolton in his role as the Acting Inspector General.
    Mr. Chairman, the United States Capitol Police is the only police 
department in the Nation that does what we do and with the high 
visibility in which we do it. Mission focus will always be the key to 
our ability to be successful, to serve and protect, and to ensure our 
employees go home safe every day. The Congress relies on us to do our 
jobs so that they may do the people's work in a free and open manner in 
the ``People's House.''
    In closing, I want to assure the subcommittee that the U.S. Capitol 
Police is committed to always being at the ready to ensure that the 
Capitol Complex is safe and secure. Our fiscal year 2019 budget request 
was developed with great thought and discipline to ensure that the 
necessary mission requirements were at the forefront of our planning 
and prioritization.
    We will continue to work closely with you and the subcommittee 
staff to ensure that we meet the needs and expectations of the 
Congress, as well as our mission, in a reasonable and responsible 
manner. Again, I thank you for the opportunity to appear before you 
today. I would be pleased to answer any questions that you may have.

    Senator Daines. Chief Verderosa, thank you for your 
testimony. Thanks again for the tour last week, taking time out 
of your busy schedule to show me your team. It was very 
impressive. I am grateful for what you do. To see the command 
center was really eye-opening. So thank you for what you do.
    Chief Verderosa. We appreciate you coming there, sir.
    Senator Daines. Especially with National Police Week as 
well this week, it is only fitting that we are having this 
hearing.
    I am going to start with Mr. Stenger. I want to talk about 
cybersecurity and training for Senate staff. Part of the 
funding provided in fiscal year 2018 for cybersecurity was to 
provide enhanced training for our Senate offices. As we 
discussed when we met in my office last week, the end-user is a 
vital component to ensuring a protected network. Certainly, in 
the world of cyber, we truly are only as protected as our 
weakest link.
    Could you describe the training program that you have 
established for offices and any plans to expand that program in 
the coming year?
    Mr. Stenger. Yes, Mr. Chairman. I think part of our program 
that we initiated a couple years ago was the acknowledgment 
that end-users are a critical link in this whole process. Most 
of the end-users are not in the SAA but, rather, in the 
Members' offices.
    We are looking for a vendor. The Department of State used 
to be the vendor we used to do business with for training. They 
are no longer providing that training. We are considering 
several options for other vendors.
    We have put on, I believe, 52 cyber-awareness seminars 
since we started the program about 1.5 years ago. Every month 
or so, we do a cyber roundup. It is live-streamed out to the 
offices. We have done nine. I think we are going to do another 
one tomorrow, so it will be 10. In Cyber Awareness Month in 
October 2017, we did four events.
    So we are continuing to look at opportunities to go out to 
the end-users, to the offices both here and out in the field, 
to train them and give them some awareness. In my experience, 
the easiest way for a cybersecurity breach to occur is through 
someone at some point in the system. So the system is only as 
good as the people that are using it.
    Senator Daines. Mr. Stenger, when I think about our staff, 
we see the staff here up on Capitol Hill, but you wake up every 
morning thinking about staff spread all across the United 
States.
    I think about my home State of Montana. We have staff 
members in pretty remote places. Sometimes a single staff 
member holding down the outpost, in my case, out in Sidney, 
Montana, on the North Dakota-Montana border.
    Do you feel you have the resources to ensure that we have 
adequate cyber training in place not just for our staff here on 
Capitol Hill but when we think about how dispersed the Senate 
staff are around the country?
    Mr. Stenger. Yes, Mr. Chairman. That is part of what we are 
doing. When we do these seminars, we are offering our webinars 
or live-streaming to the State offices as well. We recognize 
that compromises can take place anywhere, either here in 
Washington, DC, or at a State office. So we are incorporating 
them into all our training as much as we can. We are working to 
do more of that.
    We are also doing more planning for assessments with the 
State offices, assessing any issues they might have. We can 
perform these assessments in about 2 days and determine what is 
beneficial and what is not.
    Senator Daines. One of the additional FTE that you were 
asking for in your fiscal year 2019 budget is to establish a 
Chief Privacy Officer, as requested by the subcommittee. Could 
you provide any details on what your plan is for hiring this 
position and how you will define their role in your 
organization?
    Mr. Stenger. We have taken a look at that position that we 
are going to have. Right now, it is over in our H.R. 
department, ready to be advertised. The Senate will then 
identify and select the best candidate to fill that position.
    It is interesting, as we looked at it, originally, it was 
called the Chief Privacy Officer. What we found is, as we 
reviewed some of the industry standards and the other 
organizations that are doing it, privacy information or the 
privacy office was mostly focused on PII, Personally 
Identifiable Information. The Secretary of the Senate owns much 
of the actual Senate PII, whereas the SAA acts as data steward, 
helping to secure, protect, and manage the underlying networks, 
systems, and PII and data.
    My opinion is the position will be a combination of Chief 
Privacy and Data Security Officer. The position will protect 
PII as well as Senate data that does not include sensitive PII, 
such as bills, markups, and information related to the 
legislative process. When we interview candidates for the 
position, we will ask about their experience and thoughts on 
privacy and data security.
    We will also look into establishing a strategic and 
operational privacy and data security team. The team is 
envisioned to provide policy and oversight as well as privacy 
and data security recommendations and guidance to Members, 
committees, and Senate staff. The team will apply privacy and 
security by design principles and work to implement best 
practices into current and future projects across the Senate.
    Senator Daines. Thank you, Mr. Stenger.
    Ranking Member Murphy.
    Senator Murphy. Thank you, Mr. Chairman. I have a couple 
questions that cover both witnesses. Maybe I will just do all 
mine.
    Senator Daines. You bet. Sure.

                  TACTICAL EMERGENCY RESPONSE TRAINING

    Senator Murphy. So the first topic that I wanted to bring 
up to both of you is in relation to a training program that 
actually finds its genesis in the 2012 shooting in Connecticut. 
After that shooting, the American College of Surgeons partnered 
with law enforcement to create an emergency response plan to 
try to improve survival. It was all around the procedures that 
civilians can use to stop bleeding. It is actually called the 
Hartford Consensus, because the first meeting occurred in 
Hartford and empowered civilians to take lifesaving actions 
when the need arises.
    Chief Verderosa, I understand that your officers are being 
trained in the Stop the Bleed process, so I did not know if you 
have any update on that or whether there are plans to have all 
officers trained?
    Mr. Stenger, SAA offers training to Senate staff on a 
number of topics. I do not think that there is, right now, a 
Stop the Bleed course, so I just wanted to inquire to you as to 
whether you would be open to adding a course available to 
Senate staff, given the fact that, as I understand, all Capitol 
Police officers are being trained on this as we speak.
    So I just ask the question of both of you.
    Chief Verderosa. Yes, sir. Through the Federal Law 
Enforcement Training Center, we are training our newest 
employees with the tactical emergency response kits. That has 
ways to stop critical bleeding, traumatic injury, for first 
responders. As we grow the new hires and put people through 
attrition hiring, we will move that into in-service training as 
well.
    Obviously, the kits are reasonably expensive. They are not 
overwhelmingly expensive. They are easily carried, and you can 
likely see our newest officers who are in their police officer 
training, their field training right now, they generally are 
the ones who have the kits with them.
    Certainly, our tactical units and other specialized units 
also have EMT experience and are assigned. When we are trained 
remotely at ranges, we always have an EMT available with 
equipment. Our dignitary protection teams have the ability to 
have additional medical kits with them. And then as we move 
forward into our tactical units and our active-shooter 
training, we are going to continue to deploy these kits as we 
move on through regular in-service refreshment.
    Senator Murphy. Mr. Stenger, is this something that you 
would be interested in offering to Senate staff?
    Mr. Stenger. Our State Liaison Office works closely with 
the Capitol Police on dealing with the State offices as well on 
active-shooter training and things of that nature. We also 
expanded our training to emergency preparedness, working with 
the State offices as well as the offices here. We are prepared 
for emergencies that may arise, whether they are natural 
disasters or whether there is a situation involving criminal 
activity.
    So we do most of it in-house with the State offices as much 
as we can, and we have a very good group of people that are 
well-trained and have history on this. That is one of the 
reasons that we are requesting to convert contractors to FTEs.
    There are a number reasons for that. We were able to save 
on the expenses on the contract by going to FTEs. But we found 
that we develop with the FTEs a loyalty to the organization, 
and we are able to surge them to do different things. In other 
words, contractors are good for certain areas, but there are 
areas where we want to have people go out to the offices. If 
they are FTEs, we can surge them and go out to the offices for 
training.
    Senator Murphy. I do not necessarily care who does it, 
whether it is you or contractors. I am just asking if you would 
be interested in taking a look at adding this as available 
additional training.
    Mr. Stenger. We are always trying to find out what is the 
appropriate training, especially in the cyber area.
    Senator Murphy. Yes, I think this one is free, so I think 
this is no cost to you. I am not sure if you are resisting the 
idea, but the American College of Surgeons just offers this 
training to people for free to understand how to control active 
bleeding.
    So I will leave it at that. I would encourage you to take a 
look at offering that training.

                 MEMBER PROTECTION AT OFF-CAMPUS EVENTS

    Back to you, Chief Verderosa. Again, this is a question or 
a series of questions for both of you.
    In the last appropriations bill out of this subcommittee, 
we included language directing the United States Capitol Police 
to develop protocols for interacting with Senate offices to 
identify outside events, gatherings, field hearings, domestic 
travel, and other occasions that might pose a risk to Member 
security and to provide a liaison process with the offices in 
order to identify those sites.
    I know we have had this conversation with before. Senator 
Lankford and I talked a lot about this. I continue to believe 
that we are not adequately transferring information between 
Member offices and Capitol Police about large gatherings of 
Members off-campus.
    We are very well-protected when we are here, but the 
protection is spotty when we are off-campus attending events 
that many Members are gathered at, attending fundraisers, 
social events.
    As far as I can tell, the report that you submitted does 
not actually propose any new liaison programs. It just simply 
restates the existing process, which is, as far as I can 
gather, you rely on the Senate Sergeant at Arms to provide you 
with information about what Members are doing. Am I wrong about 
that?
    It just seems like this report just sort of reiterated what 
the existing practice is, which is not a direct liaison 
relationship between the Capitol Police and Members of 
Congress.
    Chief Verderosa. Right. We do work very closely with both 
Sergeants at Arms to focus on events that are occurring off the 
grounds, district offices, and State offices.
    As an offshoot of the Alexandria incident and in the 
numbers for last year, we actually did an assessment of 431 
Member of Congress events. Part of the coverage that we 
provide--and we deployed dignitary protection agents on 46 of 
those events that we determined necessitated a more robust 
response than coordinating with local law enforcement. Our 
Investigation Division does an assessment, both classified and 
unclassified, of the known information about events. We will 
look at it, and we will talk with the staff to get a sense of 
what the issues are, what type of event it is, how many Members 
are involved. Obviously, Member events that are outside pose 
more of a risk than are in a secure building, particularly a 
Federal building, that type of thing.
    We will then leverage our relationships with local law 
enforcement. I found that about 99 percent of the time, we get 
very great cooperation with local law enforcement to actually 
have a presence at Member events, whether that is a codel or 
any type of organized event.
    We certainly do not have direct liaison with every Member 
office. We rely on the Sergeants at Arms to filter that 
information to us, and we go out and do the assessment.
    Now, in our database searches for various events for 
Members of Congress on a daily basis, we are always looking for 
things that may be of interest to the Members. We actually do 
the reach-out, a cold call to the Member office to provide that 
information, if we find something in an open source or any type 
of classified information.
    We can work closer with the Sergeants at Arms, particularly 
the liaison staff that Mr. Stenger has and Mr. Irving has in 
their offices to start a more formalized process with 
individual Member offices. That has not been the direction that 
we took in working with the board. We certainly can explore 
that, if that is the desire of Congress for us to do that.
    We are very thankful for the resources that Congress 
provided, and we immediately, after the June incident, 
increased our dignitary protection, increased our exposure to 
known events where we had Members gathered, whether it is a 
large dinner or a large outdoor event.
    Senator Murphy. You said you covered 41 events?
    Chief Verderosa. Forty-six times, we deployed agents to 
cover events for Members that were not in an organized codel.
    Senator Murphy. Right. So, Mr. Stenger, my impression is 
that you are not engaged in a weekly conversation with every 
Member of the Senate about their events outside of the 
building, that you basically rely on offices to come to you and 
present you with a request for security or to ask questions 
about security.
    Mr. Stenger. Yes, Senator, we do. We are dependent upon the 
information coming from the offices themselves.
    But as the chief mentioned, we do a lot of searches on the 
Internet. If we determine something is going on or we see some 
information that could be indicative of a function taking place 
that we are not aware of, we will reach out to the office and 
ask, ``Okay, we are seeing this. Are you requesting some 
assistance, or what is going on?''
    We try to be as proactive as we can with the offices. We 
expanded our reach with a weekly email that goes out to all 
Admin Managers, Chief Clerks and Schedulers that provides 
information on enhancing member safety and security. In our 
emergency management seminars, we talk about the necessity of 
letting us know ahead of time as much as you can on meetings 
and we share this with the Capitol Police Protective Service 
Bureau who in turn reach out to local law enforcement to 
discuss events and any advers intelligence or threats with the 
event. So we do training with the offices here at the Capitol 
as well as the office off campus. We used to call it, I think, 
Campaign on a Corner or something of that nature, to make sure 
that the State offices are aware of the capabilities that we 
have here and not to be reluctant to call us.
    Senator Murphy. I will leave it there. I just think that 
the juxtaposition between the rather large increase in Capitol 
Police staff on this campus with the fact that only 46 
gatherings of Senators and Members were covered by Capitol 
Police outside the building is not justifiable. I think we are 
well-protected here. I do not think we are well-protected 
outside of this place, in part because the information flow is 
not working the way that it should.
    Part of that is because we have young staff. We have high 
turnover. The people that would necessarily be the people 
calling you are not always best equipped to do it.
    So I continue to think we need to find a better way to do 
this.
    Last question is, Mr. Stenger, as you may know, I am also 
very concerned about our cyber exposure on personal devices. We 
have a working group that I understand is about to start its 
work. I think it is going to occur under your direction. I 
thank you for that, and I thank you for your commitment to that 
working group.
    But I wanted, as you start the work on this working group, 
just get your thoughts, personal thoughts, about the exposure 
that we have on our personal devices. Again, I think this is 
another example where it is just not justified, having a 300 
percent increase in cybersecurity resources when you are only 
protecting me 20 percent of the time because most of my online 
contact is happening when I am not on a Senate computer.
    So I just wanted to get your personal thoughts on that as 
you head into this working group.
    Mr. Stenger. I would agree with you, Senator. It is a 
vulnerability that needs to be addressed. From what I have 
learned recently, since I have taken over the Senate Sergeant 
at Arms position, it is a little convoluted as to how to 
proceed forward with dual-use devices.
    We have put together a working group, who is meeting next 
week. We will take the lead on it, because I think it is 
important for us to take the lead on it, because we are the 
ones that are going to have to implement the solution. I think 
we are going to have good representation, because there are 
rules and regulations out there that have to be addressed. As 
times go on, things change here. Things evolve continuously in 
the cyber world. And I think it is up to us to maintain 
recognition of that evolvement and take the appropriate steps.
    I think it is a good idea to have this working group, and I 
think we are going to come up with some more substantive ways 
to go forward on it.
    Senator Murphy. Thank you for that. I just do not think it 
makes sense to continue to put money into cybersecurity if we 
are leaving ourselves this exposed. So this, to me, is as 
important as it gets.
    Thank you. I know I took a long time.
    Senator Daines. No, thank you, Senator Murphy. I share the 
concern. We discussed, too, a little bit in my office that so 
many Members as well as staff are using personal devices and 
how we are, again, only as good as our weakest link.
    We probably need to be looking at where the activity is 
occurring, making sure resources are balanced out, to the 
Ranking Member's point. I think we have some room to grow 
there.
    As we look at the threat assessment, as was pointed out, it 
is ever-evolving. It is ironic to me that, if you take a trip, 
if you travel abroad, and there are certain countries we know 
are very restricted, you would never think about turning on 
your device or even bringing it to certain countries. And yet, 
here, we are a little bit more cavalier about it. And yet, the 
threat can be equally as great right here in our country with 
the techniques of certain groups now that are in rather close 
proximity.

                         USCP THREAT ASSESSMENT

    I want to talk about the threat assessment, and we will go 
back to the Chief here for a moment.
    In the fiscal year 2018 omnibus, we requested an update to 
the Department's outdated threat assessment report. As we think 
about threat assessment, back to Ranking Member Murphy's line 
of questioning here, it is ever-evolving as it relates to 
cyber, and I am guessing this would inform your mission-
requirements moving forward.
    As we are increasing funding, where should we put our 
limited resources in the most vulnerable areas? Do you 
anticipate changes from your current plans for increasing the 
level of sworn officers and posts based on this assessment?
    And also, I want to add the whole cyber issue, if both of 
you could talk about that as we think about going forward.
    Chief Verderosa. In terms of the staffing, we believe that 
our most vulnerable areas are the areas that we are beefing up 
personnel. The direct access points that allow the interchange 
where people are screened, that is where the confrontation is 
going to be.
    Our goal is to push the threat as far away from the 
buildings as possible. That does require personnel. It is a 
large undertaking.
    We go back to some of the studies that were done following 
the 1998 shooting, which was 20 years ago. The studies tell us 
that these are the types of ways that you need to screen 
people.
    We are going to increase some secondary screening in the 
Visitors Center coming up in fiscal year 2019. We are going to 
expand the type of screening that we do in the chambers to the 
CVC. There will be multiple ways that we screen people. We are 
most vulnerable at those access points.
    That is why we are beefing up the level of scrutiny that 
people get, the ability to lock down, the ability to have eyes 
and communication available before the threat gets to the 
screening portal. That is the reason.
    It is a multi-year plan. The goal is to not only put the 
eyes outside but also have additional overwatch on the inside 
while the screening is taking place. As we found out in 2016 at 
the CVC with the shooter, the individual who was screened, the 
confrontation occurred exactly where the screening point took 
place.
    Fortunately, the CVC was designed for that exact instance. 
Some of the more ornate historical buildings are not. So we are 
expanding our ability to screen and protect and put that 
protective coverage around the office buildings as well.
    In the interim, we have already started prescreening, and 
we also have our canine teams working in coordination with our 
plain-clothes personnel that are supplementing the areas until 
we get to that staffing level that we believe is necessary to 
really quell the threat, the direct threat.
    Senator Daines. Chief, thank you. I do not disagree with 
the resources. We talked about you adding additional security 
outside the buildings as another deterrent, which makes a lot 
of sense.
    Again, back to Ranking Member Murphy's line of questioning, 
we had a very serious issue here, an active shooter 20 years 
ago on the Capitol Hill grounds, but more recently, whether it 
was Alexandria or with Congresswoman Gabby Giffords where she 
is out in the field, I still think we have some great 
vulnerabilities that we need to continue to think about 
addressing, and best practices, and ensuring that protection 
exists, not just for Members but certainly for staff, 
importantly, in our offices.

              NEW SWORN HIRES AND THE MISSION OF THE USCP

    Chief, I want to shift gears and talk about the expanding 
mission of the Capitol Police, specifically for the additional 
72 sworn officers the Department is requesting in fiscal year 
2019. This request builds on substantial growth funded in the 
last 3 fiscal years.
    Chief Verderosa. Yes, sir.
    Senator Daines. My question is, when we are growing the 
force at this rate, are we able to ensure that we are 
recruiting and training to standards expected of Capitol Police 
officers?
    Chief Verderosa. I believe so. We have a very robust 
recruiting program. One of the things that the Board has done 
to assist us in the recruiting and the retention of employees 
is we have a temporary exemption to the age 57 retirement until 
December 30.
    Senator Daines. I used to think that was old. I do not 
anymore.
    Chief Verderosa. I am sorry, sir?
    Senator Daines. I used to think 57 was old. I do not 
anymore.
    Chief Verderosa. Me either, as I approach those mandatory 
retirement ages.
    But we have also raised the highest hiring age, so that we 
can attract personnel from the military. Thirty-seven is the 
standard final age that you can be hired, and it is done so, in 
accord with the Capitol Police Retirement Act, we can offer 
someone a 20-year retirement. Since the waiver is in place for 
the extended end age, we raised the waiver until 40, until 
September 30, 2020, so that we can attract more military 
retirees.
    Military personnel bring a lot to the table. They bring 
experience. They bring discipline. They bring an understanding 
of working fixed posts.
    Our recruiting efforts are very robust, and, frankly, our 
employees are our best recruiters. We did an analysis. We look 
at how we recruit, where we get applicants from. Sixty-six 
employees in the last year have brought on people, have 
suggested employees to our recruiters, and a significant number 
have succeeded into the academy, as opposed to perhaps 
recruiting at job fairs, which has very low return on 
investment. You may get one or two people. We are looking at 
the best ways to spend our resources in order to attract 
personnel.
    My administrative side of the house tells me that, in the 
last 4 years, we have had about 20,000 applicants, and we have 
hired about 400 people.
    Now, the 72 that we are hiring is for new mission, but that 
is over and above our attrition. Our attrition is about 80 a 
year with mandatory retirements. Not everyone takes advantage 
of the waiver. However, any employees that stay past the 
previous mandatory retirement age gives us flexibility, so that 
we can take some of the pressure off the hiring process.

                   RECRUITMENT AND TRAINING STANDARDS

    Senator Daines. Let me ask you a question on travel abroad. 
You go to a U.S. Embassy. You have the U.S. Marines, 
oftentimes, there. You will see them. My son is a marine. But I 
think about, when we are here in the Capitol, we are a primary 
target here for terror organizations and others.
    How do we compare--``we'' being the Capitol Police--to the 
other Federal law enforcement agencies in our recruitment and 
training standards? Specifically, are we consistent on matters 
such as background checks and continual physical fitness 
requirements?
    Chief Verderosa. We have a very robust process. Before we 
hire personnel, we test them in terms of the ability to not 
attrit out of the academy due to either physical or academic 
reasons.
    The Federal Law Enforcement Training Center has a physical 
efficiency battery. It is five tests. They have 40, 50 years of 
data that supports the reason to do it. The test is made up of 
1.5-mile run, the Illinois agility test, sit-and-reach, body 
fat composition, and bench press. We do 60 percent of that here 
prior to employment. We do the bench press, the 1.5-mile run, 
and the agility run.
    What we do in order to attract and maintain is we use a 
standardized POST test, Police Officer Standardized Test, but 
then we give a battery of tests, psychological, polygraph, and 
medical. We also do a thorough background investigation.
    We look at what other agencies do, and other agencies 
actually want to come up and look at how we do it.
    We do advertise online on USAJobs, and we find that really 
gets a large cross-section. We get a tremendous amount of 
activity. A lot of it is word-of-mouth. Again, our own 
employees are generally the better recruiters for us.
    Down the road, I would look to incentivizing that, because 
my employees are the best judge. They can provide the most 
information about the job, the most accurate information.
    We test, and we generally take the top 3 percent. They go 
through the process, and they are free to reapply again. They 
do not linger in a pool of candidates.
    All of the hires that we have gotten in recent years are 
all for new mission. We staff at about 85 percent, 90 percent, 
so that we make up the difference in overtime. We find that the 
employees we are getting are good.
    Now, it is becoming a younger work force. They are highly 
educated, and they have less work experience than when I came 
on. As we go through the different generational differences, in 
terms of the candidates we are getting, that is the work force 
that is out there.
    We actively recruit military folks. We go to universities, 
where we target where our demographics need improvement, that 
type of thing.
    But I think, overall, we compete very well against other 
Federal law enforcement. Thanks to Congress, we have a very 
generous starting salary. We have very robust training. We 
provide 13 weeks of additional training over the basic Federal 
law enforcement training that all Federal police officers get. 
We do that. A couple other agencies do that. The less security-
oriented, more police-oriented organizations tend to provide 
more follow-on training.
    The Federal Law Enforcement Training Center (FLETC) does a 
number of wonderful things for us, but, what they do not do is 
provide the training specific to Capitol Hill or Washington, 
DC. In combination, the two training academies really put out a 
quality product--and I have said this before. I am confident 
that when our officers graduate the academy, if they are 
successful, they can police in any city or any jurisdiction in 
this country, and they will be very successful.
    Senator Daines. Thank you, Chief.

                      POST-HIRING PHYSICAL FITNESS

    Ranking Member Murphy.
    Senator Murphy. Two final questions, and I can take short 
answers to these.
    Just to clarify, on physical fitness, you have the test 
that you described as part of training, but you do not do 
follow-up tests once you have hired?
    Chief Verderosa. Right. At one time, we did some studies on 
whether or not we would initiate a health and fitness program. 
We initiated the physical readiness test for the specific 
purpose of making sure that we have low attrition in our 
academy due to physical training.
    We do an incentive voluntary. We have a number of gyms that 
are available to our employees, our recruits, and our work 
force. Generally, they do, in fact, utilize those gyms. We have 
a physical fitness instructor on staff, a contractor, that will 
help and design a fitness program for every employee. But we do 
not have mandatory fitness testing.
    We looked at it. We got involved, and there are a lot of 
legal challenges to instituting a program once you have 
incumbent employees that were not tasked with performing those 
essential functions. If you are held to a standard when you are 
hired, we did not want to grandfather in a program and have 
half the Department on and half not.
    We chose to use an incentive program in the early 2000s. We 
had monetary compensation for fitness levels, but due to 
budgetary constraints, we had to discontinue that.
    Senator Murphy. Not to put words in Senator Daines' mouth, 
but I think his question was sort of asking whether your 
incumbent training or incumbent fitness requirements are 
similar to other forces that are doing some of the same work. I 
guess I would still be interested in, you do not need to 
provide that now, but for the record, I would be interested in 
that.
    Chief Verderosa. Sure.
    [The information follows:]

    The Department is currently in the process of benchmarking physical 
fitness programs administered or considered to be implemented by other 
Federal law enforcement agencies throughout the United States. This 
includes both voluntary and mandatory physical fitness programs for 
incumbent officers, a legal sufficiency review, and working with law 
enforcement organizations such as the Police Executive Research Forum, 
the International Association of Chiefs of Police, and the Commission 
on Accreditation for Law Enforcement Agencies, Inc. to obtain best 
practices information. We take the health and overall well-being of our 
officers extremely seriously and are committed to ensuring their health 
and long-term well-being is maintained throughout their careers. We 
will provide our findings to the Committee upon the conclusion of our 
review.

    Senator Murphy. I am fine. Thank you.
    Senator Daines. Thank you, Ranking Member Murphy.
    This concludes the Legislative Branch Appropriations 
Subcommittee hearing regarding fiscal year 2019 funding for the 
Senate Sergeant at Arms and the U.S. Capitol Police. Thank you 
to each of our witnesses for your testimony today.
    The hearing record will remain open for 7 days, allowing 
Members to submit statements and/or questions for the record, 
which should be sent to the subcommittee by close of business 
Tuesday, May 22, 2018.

                         CONCLUSION OF HEARINGS

    Senator Daines. The committee stands adjourned.
    [Whereupon, at 4:54 p.m., Tuesday, May 15, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
